No. 00-0000

 

IN THE SUPREME COURT OF
THE UNITED STATES

 

PENNSYLVANIA,
Petitioner

JOSEPH J. DAVIS,
Respondent

CERTIFICATE OF SERVICE

L, William R. Stoycos, Senior Deputy Attorney General, certify that a true and correct
copy of the Petition for a Writ of Certiorari and Appendices has been served on the person
named below by depositing an envelope containing the above document in the United States
mail and/or via UPS Next Day Ground Delivery, addressed to the person below and with
postage prepaid:

Peter Goldberger, Esquire
50 Rittenhouse Place
Ardmore, PA 19003

(610) 649-8200

(Counsel for Joseph J. prs
1

Pa. Office of Attorney General
16th Floor, Strawberry Square
Harrisburg, PA 17120

Phone: 717-787-1401

Fax: 717-783-5431

Date: April 20, 2020

 
 

WILLIAM R, STOYCOS*
Senior Deputy Attorney General
Appeals & Legal Services Section
wstoycos@attorneygeneral.gov
*Counsel of Record

 
